Report No. DoDIG-2012-143              September 27, 2012




      ISO 9001:2008 Quality Assurance Assessment of
          Defense Acquisition University Processes
Additional Information
The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight prepared this report. If you have questions, contact the signer of the report.

Suggestions for Assessments
To suggest ideas for or to request future reviews, contact the Office of the Deputy
Inspector General for Policy and Oversight by phone (703) 602-1017 (DSN 602-1017),
by fax (703) 604-8982, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Policy and Oversight
                       4800 Mark Center Drive (Suite 15K28)
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations

DAU                           Defense Acquisition University
IG                            Inspector General
IS                            Information Systems
MIPRs                         Military Interdepartmental Purchase Requests
                                    INSPECTOR GENERAL                            SEP 2 7 2012
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




MEMORANDUM FOR ACTING PRESIDENT, DEFENSE ACQUISITION UNIVERSITY

SUBJECT: ISO 9001:2008 Quality Assurance Assessment of Defense Acquisition University
         Processes (Report No. DODIG-20 12-143)

The subject assessment was started on January 27, 2012 at the request of the former Defense
Acquisition University President.

The DoD IG conducted a quality review of seven functional areas at the Defense Acquisition
University (DAU) utilizing ISO 9001:2008 Quality Management System Requirements. The
assessment did not uncover any material weakness in the process reviewed. The DoD IG did
however identify two systemic issues concerning inadequate documented processes and
procedures and inadequate internal training and documentation of the training. Once the
opportunities for improvement noted in this report are implemented, DAU will have a more
mature and robust process.

DoD Directive 7650.3 "Follow-up on General Accounting Office (GAO), DoD Inspector
General (DoD IG), and Internal Audit Reports," requires that recommendation be resolved
promptly. DAU concurred with the DOD IG recommendations made in the September 21 , 2012
draft report. DAU indicated they will have all three recommendation fully implemented by
September 30, 2013. Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. For additional information on this report,
please contact Ms. Heather Simko at (703) 699-5498 (DSN 664-5498).



                                        ·7L;(:!S
                                             Deputy Inspector General
                                             Policy and Oversight


cc:
Director, Performance and Resource Management, DAU
Director, Operations Support Group, DAU
Report No. DODIG-2012-143                                              September 27, 2012


              Results in Brief: ISO 9001: 2008 Quality
              Assurance Assessment of Defense
              Acquisition University Processes

What We Did
Our overall objective was to perform a quality review, using ISO 9001:2008 Quality Management
System assessment techniques, of Defense Acquisition University (DAU) processes. We determined
whether established practices and processes in each functional area were effectively implemented and
maintained and whether process controls were adequate and identified organizational risks. We also
determined the effectiveness of each process to identify areas needing improvement.

We reviewed seven functional areas. At the completion each functional area review, we produced a
status report that identified any findings or opportunities for improvement for DAU (Appendix B). The
findings and opportunities for improvements identified in the status reports were used to identify the
systemic issues cited in this report.

What We Found
This assessment did not uncover any material weaknesses in the processes reviewed. However,
opportunities for improvement were noted, which resulted in the DoD Inspector General (IG) identifying
two systemic issues:
   • Systemic Issue A. DAU internal processes and procedures were not fully documented. Also,
       DAU did not adequately diagram its process flows.
   • Systemic Issue B. DAU did not have a robust training program in place for its internal processes.
       Also, DAU did not consistently track that individual users completed training for internal
       processes and systems.

What We Recommend
The DoD IG recommends that DAU:
   1. Document all the processes and procedures within the seven functional areas and reassess their
      validity a year after full implementation.
   2. Review each process flowchart and standardize them across the university.
   3. Review training on internal processes and procedures and track and document that all individual
      users have completed the training.

Management Comments
The Chief of Staff of the Defense Acquisition University accepted the two findings and concurs with all
three recommendations.




                                                   i
Table of Contents

Introduction                                                               1

      Objectives                                                           1
      Background                                                           1
      Scope and Methodology                                                1
      Summary of Results                                                   1

Systemic Issue A. Inadequately Documented Procedures                       2

      Recommendations                                                      2
      Defense Acquisition University Response                              2
      DoD IG Response                                                      3

Systemic Issue B. Inadequate Training and Documentation of Training         3

      Recommendation                                                       3
      Defense Acquisition University Response                              3
      DoD IG Response                                                      3

Conclusion                                                                 3

Appendices

      A. Scope and Methodology                                              4
      B. Functional Area Reports and DAU Comments                           5
             Financial System Report                                        6
             Contracting Process Report                                    19
             Micro Purchases and Training Requisiton Report                29
             Property Management, Supply Maintenance, Real Property
                    Management and Facilities Maintenance Process Report   40
             Information Technology Process Report                         47


Management Comments                                                        57




                                        ii
Introduction
Objectives
Our overall objective was to perform a quality review, using ISO 9001:2008 Quality
Management System assessment techniques, of Defense Acquisition University (DAU)
processes. We reviewed the processes within seven functional areas: Finance,
Contracting, Micro-Purchases and Training Requisitions, Property Management, Real
Property Management and Facilities Maintenance, Supply Management, and Information
Systems (IS). We determined whether established practices and processes in each
functional area were effectively implemented and maintained and whether process
controls were adequate and identified organizational risks. We also determined the
effectiveness of each process to identify areas needing improvement.

Background
The DAU President requested that the DoD Deputy Inspector General (IG) of Policy and
Oversight conduct an ISO 9001:2008 quality assessment of select functional areas and
their processes. We started the subject assessment on January 27, 2012.

Scope and Methodology
We conducted a quality review of the seven functional areas and their processes, based
on ISO 9001:2008 Quality Management System Requirements, at the DAU administered
by one of three groups: Performance and Resource Management (PRM), Operations
Support Group (OSG), and Information Systems (IS). We conducted the reviews of
Finance, Contracting, Micro-Purchases and Training Requisitions, and IS separately. We
combined the areas of Property Management, Supply Management, and Real Property
Management and Facilities Maintenance because they are all under the OSG. We
produced a status report at the completion of each functional area review that identified
any findings or opportunities for improvement for DAU. DAU had 30 days to review and
comment on each status report. Appendix B of this report contains each report and
DAU’s comments. The individual functional area reports outline the detailed
methodology used to assess the processes in that area. This overarching report of the
seven functional areas identifies only the systemic issues found.

Summary of Results
During the course of this assessment, the team identified 3 findings and 30 opportunities
for improvement, which resulted in 2 systemic issues. The three findings were identified
during the review of the finance area. The three findings are:
    1. Incoming Military Interdepartmental Purchase Requests (MIPRs) −DoD
        Regulation 7000.14, “DoD Financial Management Regulation,” and DoD
        Instruction 4000.19, “Interservice and Intragovernmental Support,” are not
        incorporated into DAU standard operating procedures.
    2. Outgoing MIPRs−DoD Regulation 7000.14 and DoD Instruction 4000.19 are not
        incorporated into DAU standard operating procedure.




                                                                                            1
   3. Change requests for the Standard Army Finance Information System are not
      implemented and do not allow for the period of performance to be included on the
      outgoing MIPRs processed through the electronic DAU Business Center.
See Appendix B for details of these findings and DAU’s plan to address each of the
findings.

The 30 opportunities for improvement consist of 2 in Finance; 4 in Contracting; 9 in
Micro Purchases and Training Requisitions; 6 in Property Management, Real Property
Management and Facilities Maintenance, and Supply Management; and 9 in IS. These
opportunities for improvement are detailed in the status report for each functional area in
Appendix B.

Systemic Issue A. Inadequately Documented Procedures
Several of the processes within the seven functional areas were not fully documented.
Many of the processes and procedural documents are in draft form or are currently being
drafted. Also, the process flows for these processes are improperly or inadequately
diagramed. For example, the process flows within the procedures did not clearly show the
current process, decision points, alternate paths, or starting and stopping points.

Examples of this were identified in each of the functional areas. The Federal Acquisition
Regulation is the overarching criteria for the Finance functional area; however, DAU has
no procedural documents for that area. DAU uses an automated system to process MIPRs
and purchase and training requests; however, the process flowcharts used to document
the process do not accurately show the process, which includes decision points and
process variations. In addition, at the time of the assessment, the contracting process was
in draft form and still being refined. Moreover, DAU has directives for Property
Management and IS; however, the supplemental procedures were being written or were
in draft form. See Appendix B for further details.

It is a best business practice to document all procedures, even if those procedures are
automated, for ease of training, knowledge transfer, process verification, and process
improvement. It is also a best business practice to use standardized flowcharts when
charting processes and information flow through a system.

Recommendations
The DoD IG recommends that DAU:
   1. Document all the processes and procedures within the seven functional areas and
      reassess their validity a year after full implementation.
   2. Review each process flowchart and standardize them across the university.

Defense Acquisition University Response
   1) DAU concurs with the recommendation and will have all processes and
      procedures with the seven functional areas thoroughly and properly well
      documented no later than September 30, 2013.



                                                                                              2
   2) DAU concurs with the recommendation and will review each process flowchart
      for standardization and consistency across the university no later than March 31,
      2013.

DoD IG Response
The DoD IG concurs with DAU’s plan of action in response to the two recommendations
to improve their documented procedures.

Systemic Issue B. Inadequate Training and
Documentation of Training
DAU did not have a robust training program for internal processes and the use of its
electronic business systems. For example, for many of the process areas, no formal
training was provided beyond an on-line slide presentation. However, DAU supplements
the slides with one-on-one training in the use of the automated business systems. Also,
DAU did not track whether individual users had successfully completed the on-line
training or the supplemental training. Effective training and documentation of training is
a best practice.

Recommendation
   3. The DoD IG recommends that DAU review training on internal processes and
      procedures and track and document that all individual users have completed the
      training.

Defense Acquisition University Response
   3) DAU concurs with the recommendation and will review our training on internal
      processes and procedures, and will track and document that all individual users
      have completed appropriate training by March 31, 2013

DoD IG Response
The DoD IG concurs with DAU’s plan of action in response to the recommendation to
improve their internal training program.

Conclusion
This assessment did not uncover any material weaknesses in the processes reviewed.
However, many opportunities for improvement were noted that, when implemented, will
result in more mature processes.

DAU’s main weakness across all functional areas is the lack of documentation and
training. Many of the process documents in each of the functional areas are still in draft
form, have not been documented, or have not been fully implemented. Processes
currently being used are meeting DAU’s needs; however, due to the immaturity of
several of the process, this assessment should serve as a baseline for future assessments.



                                                                                             3
Appendix A. Scope and Methodology
We conducted this technical assessment from January 2012 through August 2012 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
“Quality Standards for Inspection and Evaluation.” Those standards require that we plan
and perform the assessment to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our assessment objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our assessment objectives.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.




                                                                                          4
Appendix B. Functional Area Reports and
DAU Comments




                                          5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
Management Comments




                      57
58
59
